No. 20-362

 

 

IN THE

Supreme Court of the United States

COCHLEAR CORPORATION, COCHLEAR LTD,

Petitioners,
v.

ALFRED E. MANN FOUNDATION FOR SCIENTIFIC
RESEARCH, ADVANCED BIONICS, LLC,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

REPLY IN SUPPORT OF PETITION FOR A
WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,921 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 23, 2020.

 

Wilson-Epes Printing Co., Inc.
